\

|V“ It

FILED
IN THE SUPREME COURT OF TENNESSEE
AT KNOXVILLE

11/16/2020
Clerk of the
Appellate Courts

IN RE ESTATE OF GLORIA KAY MURPHY-WALLACE
Circuit Court for Hamblen County
No. 14CV049

No. E2020-00464-SC-R11-CV

ORDER
Upon consideration of the application for permission to appeal of Michael C.
Murphy and the record before us, the application is denied.
PER CURIAM

Q

« • *.

FILED
OB/11/2020
Oak of (he
Appellate Courts

IN THE COURT OF APPEALS OF TENNESSEE
AT KNOXVILLE
Assigned August 6,2020

IN RE ESTATE OF GLORIA KAY MURPHY-WALLACE f ^obate
Appeal from the Circuit Court for Hamblen County
No. 14CV049
Beth Boniface, Judge
No. E2020-00464-COA-R3-CV

DEC 2 1 2020
time LO J S~Q
HAMBtaTcoUNfy

This is an appeal of a suit contesting the validity of a Last Will and Testament. Because
the notice of appeal was not timely filed, this Court lacks jurisdiction to consider this
appeal.
Tenn. R. App. P. 3 Appeal as of Right; Appeal Dismissed
Kristi M. Davis, J.; D. Michael Swiney, CJ.; and John W. mcClarty, J.
Michael C. Murphy, Morristown, Tennessee, pro se appellant
Kelley Hinsley, Morristown, Tennessee, for the appellee, Estate of Gloria Kay MurphyWallace.
MEMORANDUM OPINION1
The appellee, the Estate of Gloria Kay Murphy-Wallace, filed a motion to dismiss
this appeal on grounds that the notice of appeal was not timely filed in accordance with
Rule 4(a) of the Tennessee Rules of Appellate Procedure. The Trial Court’s judgment was
entered on August 16,2019. The appellant, Michael C. Murphy, timely filed a motion for
1 Rule 10 of the Rules ofthe Court of Appeals provides:
s

%

clerk

\

This Court, with the concurrence ofall judges participating in the case, may
affirm reverse or modify the actions of the trial court by memorandum opinion
when a formal opinion would have no precedential value. When a case is decided
by memorandum opinion it shall be designated “MEMORANDUM OPINION,”
shall not be published, and shall not be cited or relied on for any reason in any
unrelated case.

We can glean the following principles from Rule 59.01 and from these
cases. Rule 59.01 prohibits motions to “reconsider,” on the same grounds,
as a previously decided Rule 59 motion. See Gassaway, 604 S.W.2d at 60;
Tenn. R. Civ. P. 59.01. Rule 59 also prohibits a party from fling a motion
to alter or amend a judgment that is not changed when a trial court enters an
order in response to another party’s timely motion to alter or amend. See
Graybeal, 2012 WL 4459807, at *10. A party can file a motion to alter or
amend a judgment that has been changed in response to another party ’s Rule
59 motion. Albert, 145 S.W.3d at 526; Savage, 2001 WL 1013056, at *8;
Brenneman, 2001 WL 543434, at *3; see also Graybeal, 2012 WL 4459807,
at *10 (recognizing that a judgment altered in a manna: adverse to a party
will have the effect of starting the time anew for filing a timely motion
_____ pursuant to Rule 59). In addition, filing two motions to alter or amend is not_
always fatal - a party can file a motion to alto: or amend a judgment that was
amended in response to his opponent’s motion even if he or she has already
filed one motion to alter or amend prior to the amended judgment. See
Barnes, 2014 WL 1413931, at *3-4.
The question remains as to whether a party can file a Rule 59 motion
in response to an amended judgment when it was that party who successfully
moved for the' amended'judgment. We believe that such a party should be
allowed to do so, assuming, of course, that the second motion is not simply
a motion to “reconsider” previously asserted grounds. The purpose of a Rule
59 motion to alter or amend a judgment is to prevent unnecessary appeals-by
providing the trial court with an opportunity to correct errors before the
judgment becomes final. Discover Bank v. Morgan, 363 S.W.3d 479,489
(Tenn. 2012).
Legens v. Lecomu, No. W2013-O18OO-COA-R3-CV, 2014 WL 2922358, at *12-13 (Tenn.
Ct. App. June 26,2014).
As pertinent, appellant’s motion to alter or amend attempted to raise two issues,
one of which concerned a 2009 letter admitted into evidence and another which concerned
a belatedly excused alternate juror. A careful and thorough review of appellant's motion
for a new trial reveals that these two issues initially were raised in the motion for a new
trial. Furthermore, the Trial Court specifically addressed these two issues in its December
19,2019 order denying appellant’s motion for a new trial.
The Trial Court’s February 18, 2020 order denying appellant’s motion tb alter or
amend shows that the Trial Court considered the motion to alter or amend to be a motion
for reconsideration. We agree. Appellant’s second Rule 59.01 motion, ie., the motion to
alter or amend, did not raise new issues in response to changes to the judgment, but instead
was an attempt to have the Trial Court reconsider previously asserted grounds. As such,
-3-

<

1

.

the motion to alter or amend was in substance merely a motion for reconsideration, which
as discussed above, is not permitted.
The thirty-day time period for filing a notice of appeal began to run when the Trial
Court entered its December 19,2019 order denying appellant’s motion for a new trial. As
appellant failed to file his notice of appeal within thirty days of entry of the order denying
his motion for a new trial, die notice of appeal was untimely filed, thus depriving this Court
of jurisdiction. Appellee’s motion to dismiss is hereby GRANTED and this appeal is
DISMISSED. Appellee requests an award of costs “pursuant to Rule 40, Tennessee Rules
of Civil Procedure” and reasonable attorney’s fees pursuant to this Court’s “inherent
authority... under Rule 11, Tennessee Rules ofCivil Procedure.” Rule 40 ofthe Tennessee
Rules of Civil Procedure does not provide for an award of costs, and appellee has not made
_____ a showing supporting an award of attorney’s fees. Costs on appeal are taxed to appellant,
Michael C. Murphy, for which execution may issue.
PER CURIAM

I, James M,
this is a ‘'
-4-

erf aerie, hereby certify that
original

iis/

byr

7

/.o.c.

THIRD JUDICIAL DISTRICT OF TENNESSEE
IN THE CIRCUIT COURT FOR HAMBLEN COUNTY SITTING IN MORRISTOWN

•st*
CNJ

MICHAEL C. MURPHY,
Plaintiff

o
l

No. 14CV049

v.

S'
2S

MELISSA ANN BLALOCK,
as Executrix of the Estate of
Gloria Kay Murphy-Wallace,
Defendant

TERESA WEST
CIRCUIT COURT CLERK
HAMBLEN COUNTY

( FEB 1 8 2020 :
By.

rh

ORDER

This matter came to be heard on January 21, 2020, before Beth Boniface, Circuit Court
Judge for Hamblen County, Tennessee, upon Plaintiffs Rule 59.04 Motion to Reconsider.
After review of the pleadings and the record as a whole, the Court makes the following
findings of facts and conclusions of law.
1.

Plaintiff filed a Tennessee Rule of Civil Procedure 59.02 Motion for a New Trial

on September 13, 2019.
2.

By Order filed on December 19, 2019, the trial court denied Plaintiffs Motion.

3.

Tennessee Rule of Civil Procedure 59.01 states:
Motions to which this rule is applicable are: (1) under Rule 50.02 for
judgment in accordance with a motion for a directed verdict; (2) under
Rule 52.02 to amend or make additional findings of fact, whether or not an
alteration of the judgment would be required if the motion is granted; (3)
under Rule 59.07 for a new trial; or (4) under Rule 59.04 to alter or amend
the judgment. These motions are the only motions contemplated in these
rules for extending the time for taking steps in the regular appellate
process. Motions to reconsider any of these motions are not authorized
and will not operate to extend the time for appellate proceedings.
Emphasis added.

1

i;xb

4.

In Plaintiffs Rule 59.04 motion, he has not provided any new evidence, changes

in controlling law, or clear error of law by the Court.
IT IS THEREFORE ORDERED that Plaintiffs Tennessee Rule of Civil Procedure
59.04 Motion to Alter or Amend is DENIED.

SO ORDERED.

JUDGE BETH BONIFACE
CERTIFICATE OF SERVICE
On this 17th day of February, 2020, I hereby certify a true and correct copy of the
foregoing has been mailed to Plaintiff, Michael C. Murphy, Esquire, at Post Office Box 1365,
Morristown, Tennessee 37816-1365 and sent via facsimile to Defendant’s Attorney, Kelley
Hinsley, at 423-587-5566.

JANE McMINN
Judicial Assistant

2

